U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Gadsden Industrial Park, LLC v. United States, No. 20-1099
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 5,
2021—147 days after the court of appeals denied a petition for rehearing en banc. The
government’s response is now due, after one extension, on April 12, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
May 12, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates. The requested extension would allow the
Court to consider the petition before its summer recess, and if the Court were to grant the
petition, the case would be argued during the fall either with or without the extension. Granting
the extension accordingly would not meaningfully change the timeline for disposition of the
case. The government does not anticipate seeking an additional extension
Counsel for petitioner does not consent to this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1099
GADSDEN INDUSTRIAL PARK, LLC
USA

AVRUM LEVICOFF
THE LEVICOFF LAW FIRM
4 PPG PLACE
SUITE 200
PITTSBURGH, PA 15642
412-434-5200
ALEVICOFF@LEVICOFFLAW.COM

